 November 27, 2002




Financial Management

Financial Reporting of Deferred
Maintenance Information on
Air Force Weapons Systems
for FY 2002
(D-2003-030)




        Office of the Inspector General
                     of the
            Department of Defense

                                       Constitution of
                                      the United States

  A Regular Statement and Account of the Receipts and Expenditures of all public money
  shall be published from time to time.

                                                                    Article I, Section 9
 Additional Information and Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
 fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

ACC                  Air Combat Command
ALC                  Air Logistics Center
ANG                  Air National Guard
FASAB                Federal Accounting Standards Advisory Board
FMR                  Financial Management Regulation
OMB                  Office of Management and Budget
O&M                  Operation and Maintenance
PP&E                 Property, Plant, and Equipment
RSI                  Required Supplementary Information
SFFAS                Statement of Federal Financial Accounting Standards
          Office of the Inspector General of the Department of Defense
Report No. D-2003-030                                                November 27, 2002
   (Project No. D2001FJ-0156.001)

        Financial Reporting of Deferred Maintenance Information
               on Air Force Weapons Systems for FY 2002

                                    Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for compiling
and reporting deferred maintenance information and users of deferred maintenance
information should read this report. The report discusses how to comply with deferred
maintenance reporting requirements.

Background. The Federal Accounting Standards Advisory Board (FASAB) requires
Federal entities to provide supplemental information on deferred maintenance as part of
the entities’ financial statements. The FASAB defines deferred maintenance as
maintenance that was not performed when it should have been or was scheduled and
delayed until a future period. The Air Force reported $167.5 million of deferred
maintenance on aircraft, software, engines, and various other national defense property,
plant, and equipment commodities at the beginning of FY 2002.

We primarily focused on the records used to compile the reported deferred maintenance
estimate and did not include a detailed review of possible deferred maintenance at
contractor or field level maintenance facilities.

Results. The Air Force did not accurately report deferred maintenance. Improved
compilation procedures were needed for about $190.7 million in deferred maintenance
information. Additionally, the Air Force only collected information on maintenance
actions funded by the Operation and Maintenance appropriation. It did not identify
whether any deferred maintenance was associated with the $3.3 billion of maintenance
annually funded by other appropriations.
The Air Force was not planning to change its procedures for FY 2002 reporting. For
improvements to be made, the Air Force should develop more comprehensive procedures
for collecting deferred maintenance information. Otherwise, the Air Force will not be
able to provide a reliable estimate of deferred maintenance on national defense property,
plant, and equipment in FY 2002 (finding A).

The Air Force method of presenting deferred maintenance on national defense property,
plant, and equipment needed improvement. DoD should require the Air Force to report
major asset classes in accordance with Federal regulations and the Air Force needs to
develop a narrative that includes all the elements required by Federal accounting
standards to improve deferred maintenance reporting. Unless improvements are made,
enough information will not be presented to allow users and readers to understand the
significance of deferred maintenance estimates or to make informed decisions on the
condition of Air Force national defense property, plant, and equipment (finding B). We
also reviewed the Management Control Program as it relates to Air Force procedures for
reporting deferred maintenance. (See the Finding sections of the report for the detailed
recommendations.)
Management Comments and Audit Response. The Air Force Deputy Chief of Staff
for Installations and Logistics generally concurred with the intent of the
recommendations. However, she nonconcurred that the Air Force deferred maintenance
estimate should include only unfunded requirements deferred in that fiscal year. She also
nonconcurred that significant maintenance delays at the depots, validated requirements
that are deleted, or expected changes in depot billing rates should be incorporated in the
deferred maintenance estimate. We believe that these changes are necessary because
valid amounts of deferred maintenance were not included, and this inclusion would
improve the accuracy of Air Force deferred maintenance amounts and would ensure
compliance with FASAB requirements. The Deputy Under Secretary of Defense for
Logistics and Materiel Readiness concurred with the intent of the recommendation to
present deferred maintenance for all material asset classes but did not believe that a
change to the Financial Management Regulation was necessary. We believe that a
change to the Financial Management Regulation is necessary to ensure that the Air Force
complies with Federal accounting policies, which require separate identification of
material categories of accounting information. We request that the Air Force Deputy
Chief of Staff for Installations and Logistics, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, and the Deputy Under Secretary of Defense for
Logistics and Materiel Readiness provide comments by January 27, 2003. See the
Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                        i

Background                                               1

Objectives                                               2

Findings
     A. Collecting Deferred Maintenance Information      3
     B. Presenting Deferred Maintenance Information     13

Appendixes
     A. Scope and Methodology                           19
        Management Control Program Review               20
        Prior Audit Coverage                            20
     B. Report Distribution                             22

Management Comments
             Office of the Under Secretary of Defense   25
             Department of the Air Force                26
Background
    This is one in a series of planned reports that discusses the financial reporting of
    deferred maintenance on weapon systems for FY 2002. The audit was performed
    in support of Public Law 101-576, “Chief Financial Officers Act of 1990,”
    November 15, 1990, as amended by Public Law 103-356, ”Federal Financial
    Management Act of 1994,” October 13, 1994.

    The Financial Accounting Standards Advisory Board (FASAB) defines generally
    accepted accounting principles for the Federal Government. FASAB defines
    maintenance as the act of keeping fixed assets in acceptable condition. This
    includes all activities needed to preserve the asset so that it continues to provide
    acceptable services and achieves its expected life. However, maintenance
    excludes activities aimed at expanding the capacity of the asset or otherwise
    upgrading it to serve needs different from, or significantly greater than, those
    originally intended.

    Statement of Federal Financial Accounting Standard (SFFAS) No. 6, “Accounting
    for Property, Plant and Equipment (PP&E),” June 1996, as amended by SFFAS
    No. 14, “Amendments to Deferred Maintenance Reporting,” April 1999, defines
    deferred maintenance as maintenance that was not performed when it should have
    been performed or when it was scheduled to be performed and which, therefore, is
    put off or delayed for a future period.

    In June 1996, FASAB required entities to disclose deferred maintenance in the
    financial statements. Deferred maintenance was required to be shown as a line
    item on the Statement of Net Cost with a footnote reference in lieu of a dollar
    amount. FASAB concluded that deferred maintenance did not meet the definition
    of a liability because it could not be sufficiently measured. In April 1999,
    FASAB changed the requirements for financial statement reporting of deferred
    maintenance from a footnote disclosure to the Required Supplemental
    Information (RSI) section. This was done to allow management maximum
    flexibility in reporting deferred maintenance.

    In SFFAS No. 6 and SFFAS No. 14, FASAB observed that maintenance is often
    underfunded and the consequences of underfunding maintenance are often not
    immediately reported. The consequences include increased safety hazards, higher
    costs in the future, and inefficient operations. Therefore, reporting deferred
    maintenance estimates in the financial statements is intended to provide reliable
    information on the condition of national defense PP&E. It also shows DoD
    managers and Congress the cost of correcting national defense PP&E
    deficiencies.

    Air Force FY 2001 Deferred Maintenance Amounts. For FY 2001, the Air
    Force reported that it obligated $5.5 billion of depot maintenance. It compiled a
    deferred maintenance estimate of $167.5 million in the RSI portion of the Air
    Force general fund Financial Statement. The major classes of assets Air Force
    reported are “Aircraft” and “Other.” The Other class is broken down into
    software, engines, other major end items, and various other commodities.

                                          1
    DoD Policy. The Financial Management Regulation (FMR) implements SFFAS
    No. 6 and requires the Military Departments to report deferred maintenance on
    national defense PP&E using the “unfunded” column of the Op-30 “Depot
    Maintenance Program Summary,” as the basis for reporting deferred maintenance.
    The Op-30 is a budgetary exhibit that is submitted as part of the President’s
    Budget to report depot maintenance programs funded through the Military
    Departments’ operation and maintenance (O&M) funds. DoD policy allows the
    Departments to supplement the Op-30 unfunded amounts with any material
    deferred maintenance amounts not normally included in the Op-30 budget exhibit.

    The Air Force, Air Force Reserve, and the Air National Guard (ANG) all use the
    “unfunded” column of the Op-30 to report deferred maintenance as required by
    the FMR. To prepare the Op-30, each Air Logistics Center (ALC) compiles a
    brochure for various maintenance categories such as aircraft and engines. The
    brochure contains every depot-level maintenance task required in the upcoming
    fiscal year, the rationale for the task, and the hours assigned to each task. During
    the Logistics Support Review, the Air Force validates the maintenance task and
    assigns a dollar amount to all expected depot maintenance during the year.

Objectives
    The overall objective of the audit was to determine whether the Military
    Departments consistently and accurately compiled deferred maintenance
    information on weapons systems for financial statement reporting. We
    determined whether the Air Force procedures for compiling and presenting
    deferred maintenance information were adequate. We also assessed compliance
    with applicable laws and regulations. See Appendix A for a discussion of the
    audit scope and methodology and a review of the management control program.




                                          2
           A. Collecting Deferred Maintenance
              Information
           The Air Force did not accurately report deferred maintenance. Improved
           compilation procedures were needed for about $190.7 million in deferred
           maintenance information. The prior year estimate of deferred
           maintenance included $66.4 million of deferred maintenance that was not
           supported by adequate documentation; contained $52.8 million of deferred
           maintenance that should not have been included; did not include
           $71.5 million of deferred maintenance that should have been included; and
           did not account for the future cost of completing deferred maintenance
           requirements. Additionally, the Air Force only collected information on
           maintenance actions funded by the O&M appropriation. It did not
           determine whether any deferred maintenance was associated with the
           $3.3 billion of maintenance annually funded by other appropriations.
           These conditions existed because the Air Force did not adequately
           implement the DoD policy for collecting deferred maintenance
           information or comply with financial statement reporting guidance. The
           Air Force was not planning to change its procedures for FY 2002
           reporting. Unless the procedures are improved, the Air Force will not be
           able to provide a reliable estimate of deferred maintenance on national
           defense PP&E in FY 2002.

Air Force Policy for Reporting Deferred Maintenance
    The Air Force used the Op-30 budget exhibit to report deferred maintenance in
    FY 2001 and planned to do so again in FY 2002. At the beginning of the fiscal
    year, the Air Force developed the Op-30 total budget requirements (dollar
    amounts) based on scheduled and forecasted maintenance requirements.
    Scheduled maintenance requirements are based on a designated number of months
    since the prior depot maintenance. For each asset that has a scheduled
    maintenance cycle, the asset is required to be inducted in a specified timeframe
    In contrast, forecasted maintenance is for all weapon systems that do not have a
    scheduled maintenance cycle. These requirements are not associated with any tail
    or serial number and are beginning of the year estimates based on historical data
    and other factors.

    Representatives from the major commands, the ANG, the Air Force Reserves, the
    Air Logistic Centers, Air Force Headquarters, and the Air Force Materiel
    Command Headquarters validated the requirements. After the requirements were
    validated, the Air Force determined the level of funding for each weapon system
    by commodity.

    At the end of the fiscal year, the Air Force may adjust the Op-30 total budget
    requirements (dollar amounts) based on additions and deletions of maintenance
    requirements, and for various other reasons including price increases, retirement
    of systems, and the difference between the actual and the forecasted maintenance.


                                        3
    The Air Force then reports the amount of funding that has been obligated for
    maintenance as “funded” and the remaining requirements become the “unfunded”
    requirements.

Maintaining Adequate Supporting Documentation
    The Air Force used the Op-30, a budgetary document, as the sole basis for
    reporting deferred maintenance. However, the budgetary information Air Force
    used was not supported by adequate documentation. Specifically, Air Force did
    not reconcile the summary-level unfunded budget requirements (dollar amounts)
    used for reporting deferred maintenance with specific weapon system budget
    requirements.
    Office of Management and Budget (OMB) Bulletin 01-09, “Form and Content of
    Agency Financial Statements,” requires that reporting entities ensure that
    underlying records fully support the financial information presented. For
    $66.4 million of the deferred maintenance the Air Force reported, the Air Force
    could not provide accurate supporting information. The Air Force could not
    provide supporting documentation for the Air Combat Command (ACC) portion,
    $51.6 million, or the $14.8 million it reported in ANG deferred maintenance.

    Accuracy of Air Combat Command supporting data. The Air Force was
    unable to provide details to support the large amounts of deferred ACC
    maintenance because it used a budget document to collect the data. The budget
    document was not designed to track requirements throughout the year. The Air
    Force maintained summary information supporting the deferred ACC
    maintenance amounts totaling $51.6 million, but the amounts were not
    reconcilable to the detailed supporting documentation that ACC provided.

    According to ACC personnel, the amounts used for FY 2001 financial reporting
    were estimates developed in late August 2001. The information was based on
    actual unfunded budget data (dollar amounts) through August 2001 and estimates
    of remaining funding needed for the year.

    The total difference at the commodity level between the financial statement
    estimate of deferred maintenance and actual data was $26,857,000.

    ACC personnel could not provide an explanation for the differences in each
    commodity. Specifically, the differences between the reported deferred
    maintenance estimate of $51.6 million and the summary-level ACC data at the
    commodity level were not reconcilable to any detailed supporting documentation.
    The Air Force needed to establish a link between the two different sets of
    unfunded budget requirements. Table 1 shows the total difference between the
    FY 2001 estimated balance for the deferred maintenance and the amounts
    supported in documentation provided by ACC.




                                        4
           Table 1. Differences Between Air Force Estimates and
                           ACC Documentation
                               (in thousands)

           Commodity         ACC Data            FY 2001      Difference
                                                 Estimate
           Software              $21,393           $36,034      $14,641
           Aircraft               18,899             15,453       3,446
           Missiles                  117                  0         117
           Engines                 4,600                100       4,500
           OMEI1                       0                 14           14
           Non MSD2                3,411                  0        3,411
           ABS3                        0                  0             0
           Storage                   728                  0          728
              Total              $49,148           $51,601      $26,857
          1. Other Major End Items
          2. Non-Materiel Support Division
          3. Area Base Support


    Availability of Air National Guard supporting data. The Air Force was also
    unable to provide support for about $14.8 million of deferred maintenance that it
    estimated for the ANG. Specifically, the ANG could not provide adequate
    supporting documentation for $9.4 million of deferred maintenance related to
    Other Major End Items, $3.6 million of deferred maintenance claimed in the area
    of non-Materiel Support Division, and $1.8 million of deferred maintenance in
    Area Base Support.

Overstatement of Deferred Maintenance
    In addition to not adequately supporting the deferred maintenance data, the Air
    Force overstated the amount of the deferred maintenance requirements by
    $52.8 million. For systems we reviewed, the deferred maintenance estimate
    should not have included $23.1 million of future requirements and $29.7 million
    of contingency and forecasted unfunded requirements.

    Future Requirements. The Air Force estimate of deferred maintenance should
    not have included at least $23.1 million of maintenance that is scheduled to be
    completed in future fiscal years. The Air Force funds maintenance that is
    scheduled to cross over fiscal years when the maintenance is scheduled to begin
    and the total maintenance requirements, regardless of when the work will be
    completed, are included in that year’s Op-30. Therefore, because the Air Force
    calculated deferred maintenance from the Op-30 unfunded requirements, the
    entire amount of maintenance will be included as deferred maintenance,
    regardless of when the work will be completed. For example, the ANG reported

                                             5
    the entire unfunded amount for deferred maintenance on eight KC-135 aircraft
    instead of reporting only the portion of maintenance requirements that were
    actually deferred. As a result, the ANG overstated its estimate of deferred
    maintenance on the KC-135 by $23.1 million. The Air Force needed to defer only
    the portion of maintenance that should have been completed by year-end when
    compiling future deferred maintenance estimates.

    Unfunded Requirements. The Air Force did not accurately calculate deferred
    maintenance amounts because material amounts of unfunded requirements were
    requirements that did not meet the FASAB definition of deferred maintenance.
    The Air Force reported about $29.7 million of deferred maintenance related to
    contingency and forecasted requirements. The Air Force should not have
    included these requirements when calculating the Air Force estimate of deferred
    maintenance.
            Contingency and Aircraft Damage Requirements. Approximately
    $12.7 million of the $29.7 million of unfunded maintenance requirements that
    should not have been included as deferred maintenance were contingency and
    aircraft damage requirements. The Air Force based the estimated requirements on
    historical data at the beginning of the year for unanticipated damage maintenance
    on aircraft. However, the estimated contingency and aircraft damage
    requirements that did not occur in the fiscal year should not be included in the
    deferred maintenance estimate used for financial statement reporting for that
    fiscal year.

            Forecasted Requirements. Approximately $17 million of the
    $29.7 million of unfunded maintenance requirements were for forecasted
    maintenance that was not needed during the year. In the “engine” commodity, the
    actual requirements did not match forecasted requirements at year-end. The Air
    Force included the difference ($17 million) for the engines in its deferred
    maintenance estimate. Based on information provided by the ANG, the
    $17 million represented the difference between the beginning estimate of
    forecasted requirements and the actual amount expended on maintenance.
    However, this reporting methodology did not meet the intent of the FASAB
    because the additional expected maintenance did not and will never materialize.
    The Air Force should exclude forecasted but unrealized requirements from future
    deferred maintenance estimates.

Understatement of Deferred Maintenance
    For systems we reviewed, about $71.5 million in deferred maintenance that
    should have been part of the FY 2001 estimate was not included. Of the
    $71.5 million in understated deferred maintenance, $37.7 million was related to
    maintenance delays at the depots and $33.8 million resulted when current year
    requirements were deleted from the Op-30 due to lack of depot capacity.

    Maintenance Delays. The Air Force did not accurately collect deferred
    maintenance information because its compilation procedures did not require an
    accounting for funded work that was simply behind schedule. Specifically, the

                                        6
Op-30 is not designed to track deferred maintenance on funded requirements not
satisfied by year’s end.

Based on data received from the Air Force depot maintenance scheduling
systems, we calculated that $24.9 million of maintenance was deferred on aircraft
that were in depot maintenance status at the beginning of FY 2002. In addition,
based on Air Force depot maintenance scheduling systems, we calculated that
$12.8 million of maintenance was deferred for aircraft that were inducted for
depot maintenance by the end of FY 2001 but for which work was scheduled to
begin long before the actual induction date. Maintenance on these aircraft was
not completed as originally scheduled.

The majority of the delays occurred in weapon systems that had significant work
stoppages at the depot. For the systems we reviewed, such as the KC-135
Stratotanker, personnel stated that work was delayed for as much as three months
although the aircraft had been inducted into the depot. Reporting these material
deferred maintenance amounts will properly reflect the deferrals occurring at the
depots and comply with the DoD FMR policy that requires disclosure of any
material deferred maintenance not included in Op-30 amounts. The Air Force
should augment the Op-30 deferred maintenance estimate with delays associated
with scheduled work at the maintenance depots.

Deleted Requirements. The Air Force does not consistently and accurately
calculate deferred maintenance because required maintenance can be deleted from
the Op-30 data. Commands sometimes remove items from the list of impending
maintenance tasks included in the Op-30 because of additions and deletions of
maintenance requirements, and for various other reasons including price
increases, retirement of systems, and the difference between the actual and the
forecasted maintenance. Removing maintenance requirements from the Op-30
budget data understates deferred maintenance because all unfunded requirements
will not be included in the year-end deferred maintenance estimate. Specifically,
for FY 2001, the Air Force should have included an additional $33.8 million of
deferred maintenance in the major asset class, “Aircraft.”

The Op-30 funded and unfunded requirements are changed by the major
commands throughout the year. However, no guidance exists that instructs the
Air Force major commands to adjust year-end Op-30 budget data to comply with
deferred maintenance reporting requirements.

We reviewed 17 Air Mobility Command KC-135 Stratotanker aircraft that
required FY 2001 Program Depot Maintenance induction but were deferred until
FY 2002 due to capacity problems at the depot. Based on Air Force depot
maintenance schedules, we calculated that the 17 aircraft had deferred
maintenance of $33.8 million. The Air Mobility Command determined that these
aircraft were no longer valid Op-30 requirements and deleted them from the
FY 2001 total. However, the requirements met FASAB reporting criteria for
deferred maintenance and should have been included in the Air Force Financial
Statements.

In summary, the Air Force has not implemented procedures to include deferred
maintenance amounts for funded maintenance that subsequently becomes
                                    7
    deferred. It also has no process for including deleted requirements that meet the
    definition of deferred maintenance. To improve its compliance with FASAB and
    DoD policy, the Air Force deferred maintenance compilation process needed to
    include all material deferred maintenance requirements in its year-end estimate,
    including those requirements that are deleted from the Op-30 during the fiscal
    year. The Air Force should develop a policy to augment the year-end Op-30 data
    with validated requirements removed during the fiscal year that still meet the
    FASAB deferred maintenance definition.

Reporting Cost to Complete Deferred Maintenance
    The Air Force did not have a process in place to account for material differences
    between the Op-30 unfunded requirements and the true cost to complete the
    deferred maintenance.

    The Air Force used current-year dollar amounts taken from the Op-30 unfunded
    portion to report deferred maintenance. However, the Air Force should report an
    updated estimate of the cost to complete the deferred requirements, not what the
    cost would have been to perform the maintenance had it been completed on
    schedule. At the time of the audit, the Air Force had not established procedures to
    adjust Op-30 amounts to account for known depot rate changes. Material
    misstatements in the Air Force deferred maintenance estimate could occur without
    cost estimate adjustments to Op-30 data to account for depot rate changes.

    Information provided by personnel in the Office of the Assistant Secretary of the
    Air Force (Logistics) indicated that the Air Force increased programmed depot
    maintenance rates by 4 percent between FY 2001 and FY 2002. However, some
    depot maintenance rates increased substantially more than the 4 percent average.
    For example, in FY 2001, the KC-135 Stratotanker aircraft depot maintenance
    rates increased by approximately $2.1 million dollars per aircraft ($3.8 million to
    $5.9 million), a 55 percent increase in cost. Although the Air Force did not
    receive the official FY 2002 rate until December 2001, the preliminary rate
    increases were available in September 2001. When the following year rates are
    available before the end of the current fiscal year, adjustments to the deferred
    maintenance estimate are possible and should be performed. The Air Force did
    not do this.

Air Force Non-O&M Funds
    Deferred maintenance estimates obtained using Op-30 data are incomplete
    because the Air Force did not have a process in place to quantify deferred
    maintenance on non-O&M funded requirements. The Op-30 includes only
    maintenance requirements funded by Air Force general O&M funds. The Air
    Force funds an additional $3.3 billion in depot maintenance from other Air Force
    appropriations such as research, development, testing and evaluation;
    procurement; and working capital funds. Any deferred maintenance on those
    requirements is not included in Op-30 unfunded amounts. As a result, aircraft
    and software maintenance funded by the U.S. Transportation Command, software
    modifications, and some software maintenance were excluded from the Op-30
                                         8
     total requirements and were not included in the unfunded requirements used to
     compile the deferred maintenance estimates.

     For example, we determined that $18.5 million of deferred maintenance for Air
     Force-owned C-5 aircraft was not included in the Air Force FY 2000 deferred
     maintenance estimate. The maintenance was not funded by Air Force O&M
     appropriations and therefore would not be included in Op-30 budget data.
     Additionally, any deferred maintenance related to non-O&M funded software will
     not be included in Op-30.

     According to the Air Force FY 2003 budget estimate, the depot maintenance
     budget for FY 2002 is about $5.9 billion. The Air Force allocated about
     $2.6 billion of Air Force general fund O&M funding for depot maintenance.
     However, the Air Force did not have a process in place to quantify deferred
     maintenance at year-end on maintenance funded by appropriations other than
     O&M. Funding for depot maintenance and other actions in FY 2002 totaled
     $3.3 billion.

     To improve the completeness and accuracy of the Air Force deferred maintenance
     estimate, the Air Force should implement procedures to quantify deferred
     maintenance that will be associated with the Air Force appropriations other than
     O&M.

Intent of Deferred Maintenance Reporting Criteria
     Until the Air Force procedures for estimating deferred maintenance are improved,
     the Air Force will not be able to provide a reliable estimate of the total
     maintenance delays and deficiencies on Air Force national defense PP&E.
     Improvements are needed to prevent continuing problems for FY 2002 and
     beyond.

     In SFFAS No. 6, FASAB concludes that by reporting deferred maintenance, the
     entity would provide reliable information on the condition of the PP&E and
     estimates of the cost to correct deficiencies. In addition, due in part to concerns
     over the deteriorating condition of Government-owned PP&E, FASAB requires
     Federal agencies to report deferred maintenance.

     The Air Force deferred maintenance data collection procedures resulted in
     inaccurate and incomplete deferred maintenance amounts and amounts that
     cannot be fully supported by maintenance records. As a result, the current Air
     Force process for capturing deferred maintenance information does not meet the
     requirements of FASAB.

     Modifying Op-30 Information. The Air Force should modify the Op-30 budget
     information to account for the inconsistencies that prevent an accurate estimate of
     deferred maintenance. Specifically, Op-30 amounts should be adjusted to exclude
     unrealized contingency and forecasted amounts, to include data on maintenance
     delays at the depots, to reflect changes in depot billing rates, and to include any
     non-O&M funded deferred maintenance. Additionally, the Air Force should
     include validated requirements that are deleted during the fiscal year in the annual
                                           9
    deferred maintenance estimate. The Op-30 budget document was not designed to
    estimate deferred maintenance for financial reporting purposes and does not
    capture all material amounts of deferred maintenance. Therefore, the
    inconsistencies and inaccuracies that result from using Op-30 data for financial
    reporting purposes are likely to result in misstatements of future Air Force
    estimates of deferred maintenance information. The Air Force should improve its
    procedures to compile annual deferred maintenance amounts to prevent similar
    problems in the future.

    Obtaining Future Estimates of Deferred Maintenance. Additional sources of
    Air Force deferred maintenance data were available to augment the Op-30 budget
    exhibit. Specifically, we were provided maintenance records from the Program
    Depot Maintenance Scheduling System maintained at the ALC level that used
    estimates of the amount of work that should have been completed on aircraft in
    the depot at year-end. The ALCs also provided a list of all requested aircraft by
    tail number that had passed the Program Depot Maintenance cycle at year-end,
    along with estimated future costs to perform the required maintenance, regardless
    of the funding source or budgetary changes.

    Using sources of deferred maintenance data that are available outside the Op-30
    compilation process would improve deferred maintenance reporting. Additional
    sources of data existed that were verifiable, supported by detail-level
    documentation, and based on actual requirements. Including this information
    would have provided a more accurate picture of deferred maintenance than Op-30
    data alone. The Air Force should revise the process to compile their deferred
    maintenance estimate to report more accurate deferred maintenance information
    when budgetary information does not completely reflect the true amount of Air
    Force deferred maintenance on national defense PP&E.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Air Force Deputy Chief of Staff, Installations
    and Logistics:

           1. Develop additional procedures for collecting deferred maintenance
    information that are reconcilable with detailed year-end execution data.
    Additionally, the information needs to be expanded beyond amounts
    reported in the Op-30 budget report. Specifically, the amounts should:

             a. Include only the portion of maintenance related to the
    unfunded requirements deferred in that fiscal year,

    Management Comments. The Air Force Assistant Deputy Chief of Staff,
    Installations and Logistics, nonconcurred and stated that the Air Force does not
    view rescheduling depot-level workload within a fiscal year as deferred
    maintenance. In addition, the Assistant Deputy believed that reporting all
    deferred maintenance is not economically viable in view of the expected benefits.


                                       10
Audit Response. The Assistant Deputy’s comments were not responsive. We
agree that maintenance delays that occur within a fiscal year but are completed by
the end of the fiscal year do not constitute deferred maintenance. We do not
address these instances of maintenance delays in the report. However, the
Air Force should not report deferred maintenance for requirements that were not
scheduled to be completed by the financial statement date. In one example, this
weakness resulted in an overstatement of reported deferred maintenance for the
KC-135 aircraft. In addition, significant delays and work stoppages at the depots
can materially understate reported deferred maintenance estimates. Material
misstatements in deferred maintenance amounts occurred when rescheduling was
not properly recognized. We believe collection and inclusion of this information
is easily attainable and economically viable. Depot-level maintenance records
already show this type of information and when used in conjunction with Op-30
data, the accuracy of unfunded requirements data (deferred maintenance
information) will be improved. Both the records and the Op-30 data are readily
available. We request that the Assistant Deputy reconsider her comments and
provide comments to the final report.

           b. Exclude contingency and forecasted amounts,

Management Comments. The Air Force Assistant Deputy Chief of Staff,
Installations and Logistics, concurred and will reissue guidance to exclude
contingency requirements in the Logistic Support Review exhibits.

           c. Include maintenance delays at the depots,

Management Comments. The Air Force Assistant Deputy Chief of Staff,
Installations and Logistics, nonconcurred. She stated that the Air Force does not
view maintenance delays within a fiscal year as deferred maintenance. In
addition, she does not believe collecting this information would be cost-effective.

Audit Response. The Assistant Deputy’s comments were partially responsive.
We agree that maintenance delays that occur within a fiscal year but are
completed by the end of the fiscal year do not constitute deferred maintenance.
We do not address these instances of maintenance delays in the report. However,
we did observe instances of work stoppages at the depot that were routine and
maintenance delays crossed fiscal years. In these instances, the maintenance
delays at the depots should be reported as deferred maintenance. The reporting of
the delays will improve the accuracy of deferred maintenance amounts.
Additionally, collecting information on maintenance delays can be performed at
little additional cost because scheduling information is already available at the
depots. We request that the Assistant Deputy reconsider her comments and
provide comments to the final report.

        d. Include deleted validated requirements that still meet the
FASAB deferred maintenance definition, and

Management Comments. The Air Force, Assistant Deputy Chief of Staff,
Installations and Logistics, nonconcurred. The Air Force believes that
maintenance requirements are estimates and the lack of induction does not
necessarily equate to deferred maintenance.
                                    11
Audit Response. The Air Force comments were not responsive. We agree that
there are certain instances when the lack of induction does not constitute deferred
maintenance, such as projections based on flying hours. We do not address these
instances in this recommendation. However, the Air Force deleted depot
maintenance requirements that were based on engineering requirements that met
the FASAB definition of deferred maintenance. Those requirements should have
been reported as deferred maintenance. Required maintenance that is based on an
established interval of time should be included in the financial statements as
deferred maintenance if it is still planned to be completed in the future. This type
of deferred maintenance information was available to augment Op-30 budget
data. We request that the Assistant Deputy reconsider her comments and provide
comments to final report.

           e. Reflect changes in depot billing rates.
Management Comments. The Air Force Assistant Deputy Chief of Staff,
Installations and Logistics, nonconcurred. The Assistant Deputy stated that the
purpose of deferred maintenance financial information is to provide a year-end
value for the reporting period.

Audit Response. The Air Force comments were not responsive. The deferred
maintenance estimate should show the resources that will be required to perform
the needed maintenance in the future. Therefore, reporting an estimate of what it
would have cost to complete the deferred maintenance in the past is not
forward-looking and can be inaccurate. Instances can occur in which
maintenance costs increase to a level that warrants changes to the deferred
maintenance reporting process. We request that the Assistant Deputy reconsider
her comments and provide comments to the final report.

      2. Include non-operation and maintenance appropriations that fund
maintenance when determining the amount of deferred maintenance that the
Air Force will report in the financial statement.

Management Comments. The Air Force Assistant Deputy Chief of Staff,
Installations and Logistics, partially concurred. The Assistant Deputy stated that
the Air Force will track depot maintenance for Air National Guard; the Air Force
Reserve; and Research, Development, Test, and Evaluation.

Audit Response. The Assistant Deputy’s comments were partially responsive.
The Air Force already provided deferred maintenance information for the Air
National Guard and the Air Force Reserve. Compiling deferred maintenance data
for Research, Development, Test, and Evaluation maintenance actions is another
step toward providing more accurate deferred maintenance estimates. However,
the Air Force should confirm whether material amounts of deferred maintenance
exist for the other appropriations that fund maintenance on Air Force-owned
National Defense property, plant, and equipment such as the U.S. Transportation
Working Capital Fund, which funds some programmed depot maintenance. We
request that the Assistant Deputy reconsider her comments and provide comments
to the final report.


                                     12
           B. Presenting Deferred Maintenance
              Information
           The Air Force procedures for presenting deferred maintenance on national
           defense PP&E needed improvement. The Air Force did not:

           •   identify each major asset class,

           •   adequately report the method of measuring deferred maintenance,

           •   provide a definition of acceptable condition, and
           •   disclose the asset condition as required by the OMB and FASAB.

           Improvement was needed because the FMR did not permit the Air Force
           to present other information in accordance with OMB requirements and
           because the Air Force had not implemented other FMR requirements.
           Unless improvements are made, information will not be presented to allow
           users and readers to understand the significance of deferred maintenance
           estimates or to make informed decisions about the condition of Air Force
           national defense PP&E.

Deferred Maintenance Criteria and Policy
    FASAB Presentation Criteria. The FASAB recognizes that each entity is
    unique and allows management flexibility in reporting deferred maintenance
    amounts. Therefore, to ensure that readers understand the deferred maintenance
    amounts that are reported, SFFAS No. 6 and No. 14 require management to
    present supplemental narrative information along with the deferred maintenance
    amounts. Some examples of required information include: each major asset class,
    the method of measuring deferred maintenance, the definition of acceptable
    condition, and asset condition.

    DoD Policy. DoD provides deferred maintenance reporting policy in the FMR,
    DoD Regulation 7000.14, volume 4, “Accounting Policy and Procedures,”
    chapter 6, “Property, Plant and Equipment,” August 2000; and volume 6B, “Form
    and Content of the DoD Audited Financial Statements,” chapter 12, “Required
    Supplementary Information (RSI),” November 2001.

    Air Force Procedures. The Air Force Office of Financial Management
    developed implementing procedures for the FMR policy on deferred maintenance
    for the FY 2000 financial statements. The presentation procedures were not
    reissued for FY 2001. However, the presentation of Air Force deferred
    maintenance estimates was very similar for both fiscal years.




                                        13
Compliance with OMB and FASAB Reporting Requirements
    The Air Force procedures for presenting deferred maintenance on national
    defense PP&E needed improvement to comply with OMB and FASAB
    requirements. OMB and FASAB require narrative information in the RSI section
    of the financial statements to enable the reader to understand the condition of the
    PP&E in relation to necessary maintenance. However, the Air Force RSI data do
    not provide enough information to present the condition of Air Force national
    defense PP&E. Specifically, the Air Force procedures do not result in deferred
    maintenance reporting information that:

       •    properly identifies the major asset classes as required by OMB,
       •    reports the method of measuring deferred maintenance for each major
            asset class as required by FASAB,

       •    provides a description of requirements or standards for acceptable
            condition for each major asset class as required by FASAB, and

       •    discloses the asset condition for each major asset class as required by
            FASAB.


    Additional deferred maintenance information in these categories would improve
    the presentation of deferred maintenance by making the information more
    understandable and meaningful for users.

    Proper Identification of Major Classes of Assets. The Air Force procedures for
    presenting deferred maintenance information needed improvement to properly
    identify the major asset classes. Specifically, Air Force use of the “Other”
    category for reporting $107.9 million (64.4 percent) of the deferred maintenance
    did not comply with OMB reporting guidance. Table 2 includes the major asset
    classes and estimated deferred maintenance the Air Force reported at the end of
    FY 2001.

              Table 2. Deferred Maintenance Presentation Methodology

                                         Amount      Percent of Total Amount
           Major Asset Class          (in Millions)           Reported
           Aircraft                        $59.6                35.6
           Other*                          107.9                64.4
           Total                          $167.5               100.0
           *Consists of software; engines; other major end items; non-materiel
            support division; area, base, and manufacturing support; and
            storage




                                         14
The OMB Bulletin 01-09, “Form and Content of Agency Financial Statements,”
September 25, 2001, prohibits entities from using the “Other” category for any
balance of a material amount or for an aggregate material amount. Those
balances that are material are required to be separately reported and designated by
name.

The Air Force did not present the major asset classes in accordance with OMB
requirements because the FMR directs the Military Departments to consolidate
and report all Op-30 budget exhibit commodities, except aircraft and missiles, as
“Other” deferred maintenance. This policy limits the amount of asset classes that
can be presented in the RSI and conflicts with the intent of SFFAS No. 6 and
No. 14.

OMB states that the entity should consider materiality as the basis when
determining the major asset classes. Table 3 shows a breakdown of the “Other”
category as provided by the Air Force. The “Other” category reported by the Air
Force included material balances of deferred maintenance for engines, software,
and other major end items. Therefore, those items should have been reported as
individual asset classes. Only non-materiel support division; area, base, and
manufacturing support; and storage commodities were not material individually
or aggregately and were acceptable entries in the “Other” category.

        Table 3. Proper Deferred Maintenance Reporting for “Other”
                               Commodities

                                                 Amount       Percent of Total
     Commodity                                      (in          Amounts
                                                 millions)       Reported
     Engines                                       $21.9           13.1
     Software                                        57.9          34.6
     Other Major End Items                           19.3          11.5
     Non-Material Support Division                    6.1           3.6
     Area Base and Manufacturing Support              2.4           1.2
     Storage                                          0.3           0.2
     Total                                        $107.9           64.4


Reporting the Method of Measuring Deferred Maintenance. The Air Force
procedures for presenting deferred maintenance information needed to include the
method of measuring deferred maintenance for each major asset class. FASAB
defines two acceptable methods of measuring deferred maintenance in SFFAS
No. 6: the condition assessment survey method and the life-cycle costing method.
Condition assessment surveys are periodic inspections to determine the current
condition of an asset and estimate the cost to correct any deficiencies. The life-
cycle costing method considers operations, maintenance, and other costs in
addition to the acquisition cost of the assets. These forecasted maintenance
expenses serve as a basis for comparing actual expenses and estimating deferred
maintenance. FASAB also allows entities to use other methods similar to the two
defined.




                                    15
In its disclosures of deferred maintenance estimates, the Air Force reported that
the deferred maintenance figures were estimated amounts from future years
amended budget estimate submissions. However, this only informs the reader
what report the information was taken from and does not adequately describe the
method of measuring deferred maintenance. The Air Force needed to include a
description of the methodology and decisions that resulted in maintenance
requirements being deferred to future accounting periods. For example, deferred
maintenance can result from a lack of depot capacity, lack of spare parts,
additional unexpected requirements, or delays in contracting for required
maintenance.

The Air Force did not report the method of measuring deferred maintenance as
required by FASAB because the Air Force did not adequately implement the
FMR. Specifically, volume 4, chapter 6; and volume 6B, chapter 12 of the FMR
require entities to include a narrative statement to explain the method used to
value the deferred maintenance amounts. The Air Force should provide
additional guidance on the two types of measurement FASAB defines to ensure
that the method of measurement will be accurately reported.

Description of Requirements or Standards for Acceptable Condition. The
Air Force deferred maintenance implementing procedures needed improvement to
provide a description of the requirements or standards of acceptable condition for
each major class of asset. FASAB requires disclosure of the standards for
acceptable condition used to compile the deferred maintenance estimates.

Different definitions of acceptable condition for Air Force assets can result in
different amounts of reported deferred maintenance. For example, instead of
using unfunded requirements, the Air Force could calculate deferred maintenance
primarily based on a percentage of mission capability or future maintenance
requirements to keep assets at an Air Force standard of average remaining useful
life. Until the Air Force defines what constitutes acceptable condition for each
asset class, estimates of deferred maintenance will not comply with FASAB
requirements or accurately reflect deferred maintenance information.

The Air Force did not provide a definition of acceptable condition because the Air
Force did not implement the FMR. Specifically, volume 4, chapter 6; and
volume 6B, chapter 12 of the FMR require entities to include a narrative
statement that describes the requirements and standards for acceptable operating
condition for every major asset class. Therefore, the Air Force should provide
additional guidance detailing what constitutes acceptable condition. The Air
Force may consider relating acceptable condition to fully mission capable or
partially mission capable status and provide a method of calculating deferred
maintenance based on mission capability information.

Disclosure of Asset Condition. The Air Force deferred maintenance
presentation procedures need improvement to disclose the asset condition for each
major class of asset, as required by FASAB. Asset condition can include
averages of standardized condition rating codes; percentage of assets above, at, or
below acceptable condition; or narrative information. Condition information
would provide more depth and perspective to the reported deferred maintenance
amounts.
                                    16
    The Air Force did not disclose the asset condition because the Air Force did not
    implement the FMR policy. Specifically, volume 4, chapter 6 of the FMR
    requires entities to provide information on the condition of the assets, either in
    narrative form or through the use of descriptive statistics. However, volume 6B,
    chapter 12, does not include this requirement or refer the reader to volume 4,
    chapter 6. The Air Force procedures for presenting deferred maintenance
    information should include volume 4, chapter 6 requirements.

Understanding Air Force Deferred Maintenance Information
    The intent of SFFAS No. 6 and No. 14 is to require entities to provide meaningful
    deferred maintenance information on the condition of the national defense PP&E
    and provide estimates of the costs to correct any deficiencies. This information
    may be useful to DoD managers, the Congress and other interested parties. When
    significant portions of the required information are omitted, the usefulness of the
    data is reduced. This information, in conjunction with other types of maintenance
    and readiness indicators, is helpful in understanding where maintenance funds
    would be most effective, the differences in budget and financial reporting
    requirements, and the condition of national defense PP&E in relation to a defined
    level of acceptable operating condition.

Recommendations, Management Comments, and Audit
  Response
    Redirected Recommendation. As a result of management comments to the draft
    report, we redirected draft Recommendation B.1. to the Assistant Deputy Chief of
    Staff of the Air Force, Installations and Logistics. In addition, we redirected draft
    Recommendation B.2. to the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer.

    B.1. We recommend that the Assistant Deputy Chief of Staff of the Air
    Force, Installations and Logistics, include a narrative in the deferred
    maintenance amounts in the financial statement that describes the method of
    measuring deferred maintenance, the requirements or standards for
    acceptable condition, and the condition of assets, expressed as a narrative or
    as descriptive statistics, as required by federal accounting requirements.

    Management Comments. The Air Force Assistant Deputy Chief of Staff,
    Installations and Logistics, nonconcurred. The Assistant Deputy stated that in
    accordance with Under Secretary of Defense, Accounting and Policy Directorate
    memorandum, “Reporting of National Defense Property, Plant, and Equipment
    Quantity and Condition Information in the FY 2001 Financial Statements,” dated
    November 5, 2001, the Air Force will not report quantity and condition
    information in the DoD financial statements. The policy memorandum states that
    the Office of the Secretary of Defense has determined that reporting quantity and
    condition of national defense property, plant, and equipment information would
    be an inappropriate disclosure of sensitive information.

    Audit Response. The Assistant Deputy’s comments were partially responsive.
    We support the DoD policy regarding the disclosure of sensitive information to

                                         17
readers of the financial statements. However, this policy does not preclude the
Air Force from providing narrative information that describes the methodology
used to compile deferred maintenance information for each commodity.
Additionally, it does not prevent the Air Force from defining acceptable
condition. We believe that defining acceptable condition for national defense
property, plant, and equipment is necessary to clarify how deferred maintenance
on assets is being measured and improves the usefulness, understandability, and
acceptance of Air Force deferred maintenance information. We believe that this
type of deferred maintenance narrative information can be worded such that
sensitive information is not provided to readers of the financial statements. We
request that the Assistant Deputy reconsider her comments and provide additional
comments to the final report.

B.2. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, in conjunction with the Deputy Under
Secretary of Defense for Logistics and Materiel Readiness, revise Financial
Management Regulation volume 6B, chapter 12, to allow the Air Force to
present all material categories of deferred maintenance as major asset classes
in accordance with federal accounting requirements.

Management Comments. The Office of the Deputy Under Secretary of Defense
for Logistics and Materiel Readiness concurred with the intent of the
recommendation and stated that the Services can report subcategories at their
discretion. The Office of the Under Secretary response stated that a change to the
Financial Management Regulation was not necessary.

Audit Response. The Office of the Deputy Under Secretary of Defense for
Logistics and Materiel Readiness comments were not responsive. Action is
needed to revise Financial Management Regulation, volume 6B, chapter 12, to
ensure that the approach used to present deferred maintenance by the Air Force
identifies material categories of deferred maintenance separately. The revision is
needed to ensure that the Air Force does not consolidate all commodities except
aircraft and missiles into the “other” category. This would ensure compliance
with the intent of Federal accounting policies. We request that the Office of the
Deputy Under Secretary of Defense for Logistics and Materiel Readiness
reconsider their comments and provide comments to the final report.




                                    18
Appendix A. Scope and Methodology
   The Air Force reported a deferred maintenance amount of $167.5 million in the
   Required Supplementary Information section of the general fund financial
   statements at the end of FY 2001. We obtained the Op-30 “Depot Maintenance
   Program Summary” budgetary documents that were used to compile the deferred
   maintenance information for the prior two years. We obtained the maintenance
   funding summaries from the Air Force major commands, which were compiled
   into the Op-30 data. We visited the three Air Logistics Centers (located at Tinker
   Air Force Base, Warner Robins Air Force Base, and Hill Air Force Base) to
   obtain depot-level supporting documentation for outstanding deferred
   maintenance amounts. We obtained September 30, 2001, airframe maintenance
   scheduling information on the C-5, KC-135, F-15, C-141, B-1, and C-130 weapon
   systems from the Programmed Depot Maintenance Scheduling System maintained
   at the various Air Logistics Centers. We obtained unfunded maintenance
   requirements information from the Air Combat Command, the Air Mobility
   Command, the Air National Guard, and the Air Force Space Program major
   commands. We attempted to reconcile deferred maintenance amounts with
   unfunded requirements obtained from the major commands.

   FASAB and the DoD FMR provide the reporting requirements for deferred
   maintenance. We met with FASAB representatives familiar with deferred
   maintenance reporting requirements to discuss the intent of the Standards. We
   reviewed the compilation and presentation of deferred maintenance for
   compliance with FASAB and DoD policy.

   The Air Force does not accumulate deferred maintenance for some
   contractor-performed maintenance or for field-level operations. Therefore, the
   audit primarily focused on reviewing the records used to compile the reported
   deferred maintenance estimate, and the audit did not include a detailed review of
   contractor or field-level maintenance facilities. In addition, we did not attempt to
   perform a comprehensive review of potential deferred maintenance on national
   defense PP&E maintenance funded through non-O&M appropriations.

   We performed this audit from July 2001 through May 2002 in accordance with
   generally accepted Government auditing standards.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the Department of Defense. This report
   provides coverage of the Defense Financial Management high-risk area.

   Computer-Processed Data. We used summary requirements, budget, and
   financial system computer data that supported the DoD Planning, Programming,
   and Budgeting System. We also used computer-processed data from the Air
   Force Programmed Depot Maintenance Scheduling System and the Core
   Automated Maintenance System. We relied on the computer-processed data
   without performing tests of system general and application controls to confirm the
   reliability of the data. We did not establish the reliability of the data because it

                                        19
     would have required audit resources that are not available. However, not
     establishing the reliability of the computer-processed data will not materially
     affect the results of our audit.

Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     Scope of Review of the Management Control Program. We reviewed the Air
     Force management’s self-evaluation of the process to compile and present
     deferred maintenance information in the Required Supplementary Information
     section of the general fund financial statements.

     Adequacy of Management Controls. We identified material management
     control weaknesses for the Air Force, as defined in DoD Instruction 5010.40. Air
     Force management controls were not adequate to ensure that all material amounts
     of deferred maintenance information were consistently and accurately compiled
     or presented in accordance with DoD policy and FASAB standards.
     Recommendations A.1., A.2., B.1., and B.2., if implemented, will correct the
     weaknesses. A copy of the report will be provided to the senior official within the
     Air Force responsible for management controls.

     Adequacy of Management’s Self Evaluation. Management’s self-evaluation
     was not adequate. The Air Force Office of Financial Management identified
     preparation of a deferred maintenance estimate as an assessable unit. However, in
     its evaluation, the Air Force Office of Financial Management did not identify the
     material management control weaknesses because the evaluation covered a much
     smaller area.

Prior Coverage
     Unrestricted General Accounting Office reports can be accessed on the Internet at
     http://www.gao.gov. Unrestricted Logistics Management Institute reports can be
     searched on the Internet at http://www.lmi.org/reports.html and may be ordered
     by emailing library@lmi.org.


General Accounting Office

     GAO Report No. GAO/AIMD 98-42, “Deferred Maintenance Reporting,
     Challenges to Implementation,” January 30, 1998




                                          20
     GAO Report No. GAO/AIMD-98-25, “Financial Management: Issues to Be
     Considered by DoD in Developing Guidance for Disclosing Deferred
     Maintenance on Aircraft,” December 30, 1997

Logistic Management Institute
     LMI Report No. LMI, LG007T1, “Enhancements to Deferred Maintenance
     Reporting for National Defense Property, Plant, and Equipment,” June 2001

     LMI Report No. LMI, LG709T1, “Disclosure of Deferred Maintenance on
     National Defense Property, Plant, and Equipment,” November 1998

     LMI Report No. LMI, PL308LN2, “Depot Maintenance Unfunded Deferred
     Requirements,” August 1994




                                       21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Logistics and Materiel Readiness
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Chief of Staff, Installations and Logistics




                                          22
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          23
               Deputy Under Secretary of Defense for
               Logistics, and Materiel Readiness
Final Report                                           Final Report
 Reference                                              Reference




                                                       Redirected




                                     25
Department of the Air Force Comments




                     26
27
     Final Report
      Reference




     Redirected




28
29
30
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Mark Starinsky
Lisa S. Sherck
Karen M. Bennett
Catherine Bird
Ann Thompson
